7
                           -   - -                 C
                                                                                    -
4                                         I                                                               1 0-pA
                                                                                                         f4.:  :~&$,4!
                                                                                                               y.

                                                                                    i
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

    Case Number: A04040021                                                                    Page 1 of 1



          Analysis of recent documents received from          show the potential for false statements made
          by the subjects in this case regarding time and effort on NSF-funded projects, and other potential
          civil/criminal claims. These statements are considered both on their own as well as in the
          perspective of documents obtained from other sources. This A case is converted to an I case to
          aid in the proper consideration of those issues.




NSF OIG rorm 2 ( 1 1102)
